<html>
<title> - UNMANNED AIRCRAFT SYSTEMS RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                       UNMANNED AIRCRAFT SYSTEMS
                        RESEARCH AND DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 21, 2015

                               __________

                            Serial No. 114-1

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-879 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, TEXAS
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia



















                            C O N T E N T S

                            January 21, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Suzanne Bonamici, Acting Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12

                               Witnesses:

Dr. Ed Waggoner, Director, Integrated Systems Research Program, 
  Aeronautics Research Mission Directorate, NASA
    Oral Statement...............................................    14
    Written Statement............................................    16

Mr. James Williams, Manager, UAS Integration Office, Aviation 
  Safety Organization, FAA
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. John Lauber, Co-Chair, Committee on Autonomy Research for 
  Civil Aviation, National Research Council
    Oral Statement...............................................    43
    Written Statement............................................    45

Mr. Brian Wynne, CEO and President, Association for Unmanned 
  Vehicle Systems International (AUVSI)
    Oral Statement...............................................    64
    Written Statement............................................    66

Mr. Colin Guinn, CRO, 3D Robotics, Small UAV Coalition Member
    Oral Statement...............................................    72
    Written Statement............................................    74

Dr. John R. Hansman, T. Wilson Professor of Aeronautics and 
  Astronautics, Massachusetts Institute of Technology (MIT)
    Oral Statement...............................................    77
    Written Statement............................................    79

Discussion.......................................................    86

             Appendix I: Answers to Post-Hearing Questions

Dr. Ed Waggoner, Director, Integrated Systems Research Program, 
  Aeronautics Research Mission Directorate, NASA.................   110

Mr. James Williams, Manager, UAS Integration Office, Aviation 
  Safety Organization, FAA.......................................   132

Dr. John Lauber, Co-Chair, Committee on Autonomy Research for 
  Civil Aviation, National Research Council......................   159

Mr. Brian Wynne, CEO and President, Association for Unmanned 
  Vehicle Systems International (AUVSI)..........................   171

Mr. Colin Guinn, CRO, 3D Robotics, Small UAV Coalition Member....   182

Dr. John R. Hansman, T. Wilson Professor of Aeronautics and 
  Astronautics, Massachusetts Institute of Technology (MIT)......   190

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   200

Prepared statement submitted by Representative Donna F. Edwards, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   201

Letters submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   202

Letter submitted by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   206

 
                       UNMANNED AIRCRAFT SYSTEMS
                        RESEARCH AND DEVELOPMENT

                              ----------                              


                       TUESDAY, JANUARY 21, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 2:35 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Before we go forward, I want to mention that at the Ranking 
Minority Member's request, we postponed the Science Committee's 
organizational meeting until next Tuesday at 11:00 a.m., and I 
ask unanimous consent to proceed with today's full Committee 
hearing under the Rules of the House, and without objection, so 
ordered. In other words, it is a little bit unusual for us to 
have a hearing before we have organized, but at the ranking 
member's request, we are going to postpone that organizational 
hearing.
    Welcome to today's hearing titled ``Unmanned Aircraft 
Systems Research and Development.'' In front of you are packets 
containing the written testimony, biography, and Truth in 
Testimony disclosures for today's witnesses. I will recognize 
myself for an opening statement and then recognize the ranking 
member as well.
    Today's hearing will examine research and development of 
unmanned aircraft systems, also known as UAS. The hearing will 
also provide an overview of how UAS research, development and 
flight tests enable the integration of UAS into the National 
Airspace System. I am going to use the term ``drone,'' since 
that is how most people refer to them. However, the term 
``unmanned aircraft systems'' is a more complete and accurate 
term.
    As the name suggests, UAS are complex systems made up of 
not only of the aircraft but also the supporting ground, air, 
and communications infrastructure. Drones come in a variety of 
shapes and sizes and can carry out a wide range of missions. In 
the past ten years, the public has become familiar with 
military drones. Less discussed are civilian and nonmilitary 
drones that have the ability to transform our everyday lives. 
Commercial drones have the potential to carry out a wide range 
of tasks across a broad range of sectors, including 
agriculture, weather, energy, and disaster relief.
    The Teal Group, an aerospace and defense industry market 
intelligence firm, predicts America will spend over $11 billion 
on UAS research, development, testing, evaluation and 
procurement over the next decade. Total worldwide spending for 
the same period is projected to be $91 billion.
    In 2013, the Association for Unmanned Vehicle Systems 
International estimated that in the next ten years, over 
100,000 U.S. jobs could be created as a result of UAS 
integration into the National Airspace System. The report also 
notes that continued delays in integrating drones in the 
National Airspace System could cost the United States more than 
$10 billion per year, or $27 million per day, in potential 
earnings from investment in drones research and development.
    In June 2014, the Department of Transportation Office of 
Inspector General released an audit report that criticized the 
FAA for being slow to integrate drones into the National 
Airspace System. The audit concluded it is unlikely that 
integration would be completed by the September 2015 deadline.
    The FAA and NASA are working together to ensure safe and 
successful integration of drones in the National Airspace 
System. Some of the research being done seeks to ensure that 
drones have the technologies necessary to avoid mid-air 
collisions and the ability to be controlled from a central 
location.
    Drones can greatly benefit our society. Farmers can use 
small drones to monitor their crops. Emergency responders could 
move quickly to access disaster areas to search for survivors. 
Energy companies could examine power lines and pipelines to 
assess damage or prevent leaks.
    UAS experimentation and testing at high schools and 
universities might lead to technology breakthroughs as well as 
inspire students to enter STEM fields. However, due to the 
delays in integrating UAS into the National Airspace System, 
the public is not yet allowed to use drones to do many of these 
things.
    Many other countries have developed a regulatory framework 
supportive of drone use for such activities. Consequently, some 
U.S.-based companies have moved research, development, testing 
and high-paying jobs offshore.
    Our goal today is to better understand the research 
underway to overcome these barriers. We are particularly 
interested in hearing how government-funded and private sector 
UAS research and development informs, or should inform, the 
integration of UAS into the National Airspace System.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Good afternoon and welcome to the Committee's first hearing of the 
114th Congress. Today's hearing will examine research and development 
of unmanned aircraft systems, also known as UAS. The hearing will also 
provide an overview of how UAS research, development and flight tests 
enable the integration of UAS into the National Airspace System.
    I'm going to use the term ``drone,'' since that is how most people 
refer to them. However, the term unmanned aircraft systems is a more 
complete and accurate term. As the name suggests, UAS are complex 
systems made up of not only the aircraft, but also the supporting 
ground, air, and communications infrastructure.
    Drones come in a variety of shapes and sizes and can carry out a 
wide range of missions. In the past 10 years, the public has become 
familiar with military drones. Less discussed are civilian and 
nonmilitary drones that have the ability to transform our everyday 
lives. Commercial drones have the potential to carry out a wide range 
of tasks across a broad range of sectors, including agriculture, 
weather, energy and disaster relief.
    The Teal Group, an aerospace and defense industry market 
intelligence firm, predicts America will spend over $11 billion dollars 
on UAS research, development, testing, evaluation and procurement over 
the next decade. Total worldwide spending for the same period is 
projected to be $91 billion.
    In 2013, the Association for Unmanned Vehicle Systems International 
estimated that in the next ten years over 100,000 U.S. jobs could be 
created as a result of UAS integration into the National Airspace 
System. The report also notes that continued delays in integrating 
drones in the National Airspace System could cost the U.S. more than 
$10 billion per year, or $27.6 million per day, in potential earnings 
from investment in drones' R&D.
    In June 2014, the Department of Transportation Office of Inspector 
General released an audit report that criticized the FAA for being slow 
to integrate drones into the National Airspace System. The audit 
concluded it's unlikely that integration would be completed by the 
September 2015 deadline.
    The FAA and NASA are working together to ensure safe and successful 
integration of drones in the National Airspace System. Some of the 
research being done seeks to ensure that drones have the technologies 
necessary to avoid midair collisions and the ability to be controlled 
from a central location.
    Drones can greatly benefit our society. Farmers can use small 
drones to monitor their crops. Emergency responders could more quickly 
access disaster areas to search for survivors. Energy companies could 
examine power lines and pipelines to assess damage or prevent leaks.
    UAS experimentation and testing at high schools and universities 
might lead to technology breakthroughs as well as inspire students to 
enter STEM fields. However, due to the delays in integrating UAS into 
the National Airspace System, the public is not yet allowed to use 
drones to do any of these things.
    Many other countries have developed a regulatory framework 
supportive of drone use for such activities. Consequently, some U.S.-
based companies have moved research, development, testing and high 
paying jobs offshore.
    Our goal today is to better understand the research underway to 
overcome these barriers. We are particularly interested in hearing how 
government-funded and private sector UAS research and development 
informs, or should inform, the integration of UAS into the National 
Airspace System.

    Chairman Smith. That concludes my opening statement, but I 
want to mention before recognizing the Ranking Member that we 
are going to have a demonstration in a minute that to my 
knowledge will be the first such demonstration in this 
Committee room, and by the way, we had to get permission to fly 
a drone in the Committee room as well, so the rules are still 
pretty strict, but I appreciate the widespread interest in the 
particular subject.
    By the way, hardly a week goes by where the subject of 
drones is not covered in some national publication or on the 
front of the local newspaper or leads the news, so this is a 
timely subject for lots and lots of reasons.
    Also, without objection, I have a letter I would like to 
put into the record from the National Association of Realtors 
supporting what we are doing here today and supporting the 
integration as well.
    [The information appears in Appendix II]
    Chairman Smith. With that, I will recognize the Ranking 
Member, Ms. Bonamici, the gentlewoman from Washington, for her 
comments.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I join you 
in welcoming our distinguished panel of witnesses, and I look 
forward to your testimony.
    I want to state that Ranking Member Johnson is currently 
detained at another committee and will join us shortly, as well 
as some of our other Members are currently in other Committees. 
The lack of other Members other than Representative Lofgren on 
this side does not indicate a lack of interest in the issue 
certainly.
    And in the meantime, I want to start by thanking Chairman 
Smith for calling this hearing on unmanned aircraft systems 
research and development.
    Because of the work in my home State of Oregon--it is close 
to Washington, Mr. Chairman----
    Chairman Smith. I am sorry. I was only one state off.
    Ms. Bonamici. I do want to make that clear because my home 
State of Oregon, I am particularly interested in hearing how we 
can provide universities with the flexibility they need for 
performing UAS testing in a safe and cost-effective manner, and 
private sector developers with the regulatory certainty 
necessary to support this growing industry.
    So we, Oregon--that is why I needed to make this clear 
because we are a participant in the Pan-Pacific UAS Test Range 
Complex led by the University of Alaska-Fairbanks, and we have 
three test sites in Oregon.
    The potential benefits of UAS technology to agriculture, 
environmental research, natural resource management and, I want 
to add that the Chairman acknowledged some of those--emergency 
disaster relief efforts--is really multiplied by expanding the 
workforce focused on the development of new products, which is 
creating, of course, new job opportunities throughout not only 
Oregon but in other test areas as well.
    So I do look forward to hearing how we in Congress and 
across the Federal Government can help safely and responsibly 
support the development of this exciting industry with so much 
potential.
    And I thank you, Mr. Chairman, and I yield back the balance 
of my time.
    Chairman Smith. Thank you, Ms. Bonamici.
    And I will now introduce our witnesses today. Our first 
witness is Dr. Ed Waggoner. Dr. Waggoner is the Research 
Director of NASA's Integrated Systems Research Program's 
Office, which seeks to integrate NextGen technologies into 
vehicle and operational systems. In this capacity, Dr. Waggoner 
also oversees UAS integration into the National Airspace 
System. Dr. Waggoner has worked for NASA since 1982, where he 
began as a researcher in theoretical aerodynamics. We welcome 
you.
    Our second witness today is Mr. Jim Williams. Mr. Williams 
is Manager of FAA's UAS Integration Office. As such, he is 
responsible for coordinating FAA's efforts to integrate UAS 
into the National Airspace System through rulemaking, 
standardization, and research and development. Before working 
on UAS, Mr. Williams served as the Director of FAA's 
Engineering Services and as the Director of the Air Traffic 
Control Communications Services Directorate. Mr. Williams 
received his bachelor's degree in aerospace engineering.
    Our third witness today is Dr. John Lauber. Dr. Lauber was 
a Co-chair on the National Research Council's Committee on 
Autonomy Research for Civil Aviation. Dr. Lauber is now a 
private consultant, and he has previously served as Airbus's 
Senior Vice President of Product Safety. He has also served as 
a member of the National Transportation Safety Board. Dr. 
Lauber received his Ph.D. in neuropsychology from The Ohio 
State University.
    Today's fourth witness is Mr. Brian Wynne, CEO and 
President of the Association for Unmanned Vehicle Systems 
International. Mr. Wynne formerly served as the President of 
the Electric Drive Transportation Association, CEO of the 
Association for Automatic Identification and Mobility, and held 
a leadership role at the Intelligent Transportation Society of 
America. Mr. Wynne received a bachelor's degree from the 
University of Scranton, a master's degree from the School of 
Advanced International Studies at Johns Hopkins University, and 
was a Fulbright Scholar at the University of Cologne in 
Germany.
    Testifying fifth today will be Mr. Colin Guinn, Chief 
Revenue Officer of 3D Robotics, North America's largest 
personal drone company. Mr. Guinn is the Co-founder and former 
CEO of DJI North America and has been featured on 60 Minutes, 
Fox, and in Tech Crunch. Before working at 3D Robotics and DJI, 
Mr. Guinn founded a company that specialized in producing 
aerial photography, marketing materials for luxury home 
builders. Mr. Guinn received his bachelor's degree from the 
University of Texas in Austin and attended the University of 
Miami School of Business.
    Our final witness is Dr. John Hansman, the T. Wilson 
Professor of Aeronautics and Astronautics at MIT, where he 
leads the Humans and Automation Division and serves as Director 
of the MIT International Center for Air Transportation. Dr. 
Hansman is a Fellow of the American Institute of Aeronautics 
and Astronautics and has received several awards including the 
1997 FAA Excellence in Aviation Award, the 1994 Losey 
Atmospheric Award, the 1990 OSTIV, which is International 
Scientific and Technical Soaring Organisation Diploma for 
Technical Contributions, and the 1986 AIAA Award for best paper 
in thermophysics. Dr. Hansman received his Ph.D. from MIT.
    Now, we thank the witnesses again for being here today, and 
Dr. Waggoner, we will begin with you.

            TESTIMONY OF DR. ED WAGGONER, DIRECTOR,

              INTEGRATED SYSTEMS RESEARCH PROGRAM,

         AERONAUTICS RESEARCH MISSION DIRECTORATE, NASA

    Dr. Waggoner. Chairman Smith, Ranking Member Bonamici and 
Members of the Committee, thank you for the opportunity to 
testify on NASA's Aeronautics Research program and the R&D 
challenges associated with unmanned aircraft systems, or UASs, 
and autonomy.
    NASA's aeronautics strategic thrust in Assured Autonomy 
defines our vision and approach for supporting the near-term 
integration of UAS into the National Airspace System, the NAS. 
This near-term research builds a foundation for the more 
extensive, transformative changes that autonomous systems will 
bring in the mid to the far term.
    UAS and autonomous systems hold great promise for the 
transformation of our aviation system. We are witnessing the 
dawn of a new era in aviation innovation, ushering in flying 
vehicles and operations that are unimaginable today, opening up 
entirely new commercial markets, much the way that jet engines 
did 60 years ago.
    NASA is performing research in transitioning our concepts, 
technologies, algorithms and knowledge to the FAA and other 
stakeholders to help them define the requirements, the 
regulations and standards for safe, routine NAS access.
    Still, there are significant barriers and research 
challenges associated with the introduction of autonomous 
systems into our aviation system. This requires these complex 
systems to be comprehensively evaluated to verify and validate 
that they are operating as designed, thus allowing the FAA to 
establish operations and equipment standards.
    The majority of NASA's near-term research work towards safe 
UAS integration is focused in three areas. In our sense-and-
avoid research, we are helping to determine performance 
requirements for a certifiable sense-and-avoid system to ensure 
safe separation of UAS with all vehicles operating in the NAS. 
We are developing secure, robust, reliable communications 
systems and protocols as well as addressing the design of 
ground control stations and displays to maximize pilot 
effectiveness and safety.
    To transfer our research findings, NASA has built effective 
partnerships with key customers: the FAA, the Department of 
Defense, Department of Homeland Security, RTCA Special 
Committee 228, as well as industry and academia. In these 
partnerships, NASA is playing a key role supporting critical 
activities from the executive level to our subject-matter 
experts.
    For midterm applications, NASA is researching novel 
concepts and technologies to facilitate safe operation of UAS 
at altitudes that are not actively controlled today, for 
example, low-altitude operation of small, unmanned aircraft. 
Initial investigations into this trade space have drawn 
interest among a broad range of traditional and non-traditional 
aerospace companies and shows promise of opening up entirely 
new markets and operational models.
    In order to safely enable widespread civilian UAS 
operations at lower altitudes, NASA is developing an air 
traffic management-like system called UAS Traffic Management. 
You can think of this as much like today's surface traffic 
management where vehicles operate under a rule-based system of 
roads, lanes, signs and traffic lights.
    The growing UAS industry and the varied user base is a 
harbinger of potential changes that autonomous systems will 
bring to aviation but enabling these changes will require 
substantial research and experimentation to ensure the safety 
and efficacy of these systems. NASA's long-term research in 
autonomy will deliver technologies that demonstrate high 
payoff, integrated applications that advance the safety, 
efficiency and flexibility of the NAS and increase 
competitiveness of the U.S. civil aviation industry.
    NASA's Aeronautics Research Mission Directorate is a 
national resource that through game-changing research advances 
enables a growing, sustainable and transformative aviation 
system. NASA is partnering with other government agencies, 
standards development organizations and industry to achieve 
routine UAS access into our National Airspace System. Our 
partnerships are built on clear roles and responsibilities, 
long and productive working relationships, and close and 
continuous collaboration and coordination for the specific 
needs of the UAS integration challenge.
    As the challenges of UAS operations evolve and the broader 
implications of integration develop, NASA aeronautics will 
continue to advance the research and develop enabling 
technologies that will assure the safe realization of the 
transformative benefits of these systems.
    Chairman Smith, Ranking Member Bonamici and members of the 
Committee, this concludes my prepared statement. I will be 
pleased to answer any questions at this time.
    [The prepared statement of Dr. Waggoner follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
   
    Chairman Smith. Thank you, Dr. Waggoner.
    Mr. Williams.

           TESTIMONY OF MR. JAMES WILLIAMS, MANAGER,

                    UAS INTEGRATION OFFICE,

               AVIATION SAFETY ORGANIZATION, FAA

    Mr. Williams. Chairman Smith, Ranking Member Bonamici, 
Members of the Committee, thank you for the opportunity to 
appear before you today to discuss unmanned aircraft systems, 
commonly referred to as UAS.
    The Federal Aviation Administration has successfully 
integrated new technology into the National Airspace System for 
more than 50 years, while maintaining the safest aviation 
system in the world. Research and development is absolutely 
critical to the safe, efficient and timely integration of new 
technology like UAS.
    Interagency partnerships with the Department of Defense, 
the Department of Commerce, the Department of Homeland 
Security, and NASA have allowed us to leverage our collective 
assets to advance research and development in the area of 
unmanned aircraft. Together with RTCA, a Federal advisory 
committee, the FAA is developing standards for command-and-
control radios to detect and avoid systems. The FAA, DOD and 
NASA are working closely together to develop a technical 
standard for UAS detect and avoid systems that will allow UAS 
to remain well clear of other aircraft. The research, 
engineering and development contributions of the DOD and NASA 
have been essential to developing that standard.
    Together with NASA and our industry partners, the FAA is 
developing standards for command-and-control radios. These 
radios provide the link between the pilot and the aircraft, and 
it is essential that they be secure and reliable. NASA and our 
industry partners are designing and building prototype radios 
to validate the standard. The FAA plans to use the NASA 
software to test the ability of those radios to function on a 
small UAS with size, weight, and power limitation.
    The FAA is also actively supporting the research and 
development efforts undertaken by other government entities in 
the area of unmanned aircraft. Since 2012, the FAA has 
participated in the DOD joint test and evaluation effort for 
UAS airspace integration sponsored by NORAD NORTHCOM and the 
Army. The purpose of the test is to evaluate standardized 
procedures to effectively conduct manned and UAS operations in 
the airport environment. The FAA provided engineers, en route 
controllers, and laboratory assets at the William J. Hughes 
Technical Center to support DOD's Human-in-the-loop 
simulations. We are also supporting this effort by evaluating 
the joint test results for potential applicability at civil 
airports. We look forward to continuing these valuable 
partnerships and working together with industry and other 
government agencies to advance UAS research and development.
    The FAA Technical Center is the Nation's premier air 
transportation system laboratory. It has a specialized UAS 
simulation laboratory for conducting integrated simulations 
through research and development UAS integration procedures and 
standards. The UAS lab has a variety of test assets including 
the ability to link FAA air traffic control systems with high-
fidelity unmanned aircraft simulators provided by our industry 
partners through cooperative research and development 
agreements.
    The Technical Center is also playing an important role in 
data collection from the six UAS test sites that were announced 
in 2013. A significant portion of the test site data analysis 
is being performed at the Technical Center. A data lead from 
the Technical Center regional representatives and research 
engineers are also visiting each UAS test site to evaluate how 
data is captured and maintained. This team will ensure the 
integrity of the data transferred to the FAA and determine 
whether additional data collection will facilitate meeting the 
FAA's research objectives. We continue to work with the test 
sites to obtain the most valuable information possible to help 
the FAA integrate UAS into the NAS.
    We are tremendously grateful for the support and funding 
Congress has provided to establish a UAS Center of Excellence. 
Our goal is to create a cost-sharing relationship between 
academia, industry and government that will focus on research 
areas of primary interest to the FAA and the UAS community.
    The Center of Excellence will perform short- and long-term 
basic and applied research through analysis, development, and 
prototyping activities. To that end, the FAA solicited 
proposals from accredited institutions of higher education with 
their partners and affiliates. We are currently in the process 
of reviewing proposals and will announce the award recipient 
within this fiscal year.
    Together with Congress, we remain committed to the safe, 
efficient and timely integration of UAS technology into the 
national airspace. We look forward to continuing to work with 
our partners in government and industry to continue making 
steady progress toward that goal.
    Mr. Chairman, this concludes my testimony for today, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Williams follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    
    Chairman Smith. Thank you, Mr. Williams.
    Dr. Lauber.

            TESTIMONY OF DR. JOHN LAUBER, CO-CHAIR,

       COMMITTEE ON AUTONOMY RESEARCH FOR CIVIL AVIATION,

                   NATIONAL RESEARCH COUNCIL

    Dr. Lauber. Thank you, Chairman Smith, Ranking Member 
Bonamici and Members of the Committee. Thanks for the 
opportunity to discuss with you today the work of the National 
Research Council's Committee on Autonomy Research for Civil 
Aviation, which I had the pleasure of co-chairing along with 
John Paul Clark from Georgia Institute of Technology.
    Our final report was issued last summer after about 18 
months of effort and was done at the request of NASA's 
Aeronautics Research Mission Directorate. We were specifically 
charged with developing a national agenda for research and 
development that would support the introduction of what we call 
increasingly autonomous elements into our civil aviation 
system. Copies of the summary of our report have been provided 
to you.
    We recognized that several key characteristics of the civil 
aviation system set the context for our study, and first and 
foremost is safety. Our air transportation system operates at 
unprecedented levels of safety, and it is clear that the 
introduction of increasingly autonomous capabilities into that 
system will be acceptable only if they preserve or further 
enhance this high level of safety and reliability.
    Secondly, we had to recognize the diversity of aircraft, 
ground systems and personnel that comprise our civil aviation 
system. Because so-called legacy aircraft and systems will 
continue to operate for the foreseeable future., it is clear 
that civil airspace must safety and efficiently accommodate 
everything from Piper Cubs designed in the 1930s to 
increasingly autonomous unmanned rotary and fixed-wing vehicles 
whose design and applications are continually evolving.
    Today's aviation system sets the baseline for the system of 
tomorrow, and in this context, autonomy is a characteristic or 
feature of future aviation automation systems that enable 
operations over extended periods of time without direct human 
supervision or intervention. This has some profound 
implications for urgent research and development in machine 
vision, perception and cognition to provide the functional 
equivalent of a see-and-avoid capability, which is a 
cornerstone for collision avoidance in our national aviation 
system, and this is but one example of what we mean when we 
talk of increasingly autonomous systems, systems that will 
evolve to perform more and more of the functions presently 
provided by human pilots, controllers and other skilled 
aviation personnel.
    Our report identifies eight technical barriers including 
such issues as cyber physical security, and we have also 
identified four barriers associated with regulation and 
certification, which include issues such as airspace access, 
and finally, we note in our report barriers related to public 
policy, law and regulation, and very importantly, social 
concerns about privacy and safety of autonomous systems.
    Our recommended research agenda consists of eight broad 
tasks, which we consider the first four to be the most urgent 
and most difficult. These include fundamental issues about how 
to characterize the behavior of systems that change dynamically 
over time. Modeling and simulation will be of fundamental 
importance to the development and deployment of these systems, 
and finally, we discuss a wide range of research issues 
involving validation, verification and certification.
    The remaining four research areas include issues having to 
do with the safe use of open-source hardware and software and 
reexamination and redefinition of the role of humans in the 
operation of these systems. We note in our report that this 
research program is best carried out by multiple government, 
academic and industrial entities and will require effective 
coordination at all levels.
    Civil aviation is on the threshold of profound changes 
because of rapid evolution of increasingly autonomous systems. 
As often happens with rapidly evolving technology, early 
adapters sometimes get caught up in the excitement of the 
moment, greatly exaggerating the promise of things to come and 
greatly underestimating costs in terms of money, time, and in 
some cases, unintended consequences or complications. While 
there is little doubt that over the long run the potential 
benefits of increasingly autonomous systems in civil aviation 
will indeed be great, there should be equally little doubt that 
getting there while maintaining the safety and efficiency of 
U.S. civil aviation will be no easy matter.
    We believe that the barriers in the research program we 
have identified is a vital next step, and that concludes my 
testimony. I will be happy to respond to questions. Thank you.
    [The prepared statement of Dr. Lauber follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Lauber, and Mr. Wynne.

                 TESTIMONY OF MR. BRIAN WYNNE,

                       CEO AND PRESIDENT,

                ASSOCIATION FOR UNMANNED VEHICLE

                 SYSTEMS INTERNATIONAL (AUVSI)

    Mr. Wynne. Chairman Smith, Ranking Member Bonamici, and 
Members of the Committee, thank you for this opportunity to 
address the importance of UAS research and development. I am 
speaking on behalf of the Association for Unmanned Vehicle 
Systems International, the world's largest nonprofit 
organization devoted exclusively to advancing the unmanned 
systems and robotics community.
    AUVSI has been the voice of unmanned systems for more than 
40 years and currently we have more than 7,500 members, 
including over 600 corporate members. As you know, UAS increase 
human potential allowing us to execute dangerous or difficult 
tasks safely and efficiently. Whether it is assisting first 
responders with search-and-rescue missions, advancing 
scientific research, or helping farmers more efficiently spray 
their crops, UAS are capable of saving time, money, and most 
importantly, lives.
    However, the benefits of this technology do not stop there. 
It has incredible potential to create jobs and stimulate the 
U.S. economy as well. In 2013, AUVSI released an economic 
impact study which found that within the first ten years 
following UAS integration, the UAS industry will create more 
than 100,000 new jobs and have an economic impact of more than 
$82 billion.
    The benefits I just outlined can be recognized immediately 
once we put the necessary rules in place to enable commercial 
operations. We understand that a Notice of Proposed Rulemaking 
for small UAS from the Federal Aviation Administration is now 
expected any day. It cannot come soon enough.
    Establishing rules will also eliminate the current approach 
of regulating by exemption whereby the FAA issues exemptions on 
a case-by-case basis for some commercial UAS operations under 
Section 333 of the FAA Modernization and Reform Act of 2012.
    While we are here today to discuss the critical role of UAS 
research and development, the fact is, we don't need a lot of 
additional research to permit low altitude, line-of-sight 
operations. A variety of commercial applications can be safely 
authorized right away, and we look forward to working with the 
FAA to get this done as expeditiously as possible.
    As we look forward--as we look beyond the initial phase of 
UAS integration, we will need robust research to further expand 
access to the airspace and address some of the challenges that 
exist to flying beyond line of sight. Areas requiring more 
research include sense and avoid, command and control, and 
autonomous operations.
    The advancement of UAS technology needs to be a 
collaborative effort between industry and government. While the 
industry is investing millions in research and the Federal 
Government has various research projects underway, we can all 
do this better and in a more coordinated fashion. The 
challenges we jointly face call for a national leadership 
initiative that places UAS integration into the National 
Airspace System and all relevant R&D at the top of our 
country's priority list. Importantly, the benefits of this 
research extend well beyond UAS. It will make the entire 
National Airspace System safer for all aircraft, manned and 
unmanned.
    A deeper national commitment to UAS R&D has three main 
components. First, the industry and its government partners 
need a holistic research plan that coordinates all UAS 
research. While the FAA designated test sites went operational 
in 2014, too many questions about the collection, sharing, and 
analysis of test data remain unanswered.
    Second, the federal government needs more resources to 
coordinate UAS research. The FAA was given $14.9 million to 
support its UAS research this year, which is up from previous 
years. However, given the scope of the research needed to 
advance UAS integration, we feel this figure is insufficient.
    Third, the government must have a transparent intellectual 
property protections--provide transparent intellectual property 
protections. Companies on the cutting edge of UAS innovations 
won't participate in FAA or other governmental research 
activities if their intellectual property isn't safeguarded. 
The FAA has taken significant steps to advance the UAS 
integration but much work remains to be done.
    AUVSI members stand ready to collaborate with the 
appropriate government agencies to accelerate the needed R&D 
efforts that will allow for the safe integration of UAS into 
the national air space system.
    Thank you again for this opportunity and I look forward to 
questions.
    [The prepared statement of Mr. Wynne follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Chairman Smith. Thank you, Mr. Wynne.
    Let me say to Members, we have had a series of votes just 
called. We are going to try to finish our witness testimony 
before we go vote and then we will resume the hearing 
immediately after the last vote.
    So we will go now to Mr. Guinn, who I think has the most 
fun job of the day, and you are recognized for your testimony.

                 TESTIMONY OF MR. COLIN GUINN,

          CRO, 3D ROBOTICS, SMALL UAV COALITION MEMBER

    Mr. Guinn. Thank you very much, Chairman Smith and Ranking 
Member Bonamici. Thank you, Committee, here for having me. It 
is an honor to come speak to you guys about something that I am 
very passionate about.
    And I think what I would like to do is just talk to you 
guys about kind of the stalemate that we are in today between, 
you know, no one is going to disagree to the benefits that UAS 
can provide to the economic, the efficiencies in business, the 
job creation, the revenue that can come into our country, and 
then at the same time, nobody is going to argue with the fact 
that we must be extremely thoughtful, considerate, and careful 
in integrating these systems into the national airspace because 
obviously the FAA has a second-to-none safety record and there 
is no question that we must maintain that.
    So I guess for me today I would like to just talk a little 
bit about where can we start, what can we do now that allows us 
to bridge that gap between the chicken and the egg. So, you 
know, we have the FAA test sites, which are great, but at the 
same time it is a little bit of testing in a bubble. And to ask 
research and development companies to rapidly iterate their 
technology and have to every couple months figure out a time 
where they can get into a test site, travel with their entire 
engineering team, you know, did they accidentally leave the 
spectrum analyzer at the lab, now someone has to fly home to 
get that. You know, so it is--it doesn't allow for very rapid 
innovation, which is obviously not going to let us keep up with 
the other countries in this world that are absolutely reaping 
the rewards and the benefits of this technology.
    Additionally, we must have--we must--testing in test sites 
is not necessarily going to give us the necessary data and the 
logged flight hours to figure out what the hurdles are, what 
the roadblocks are to safely integrating these systems into the 
NAS, and so I think what can be done in the meantime, and as 
you will see here--this is something I am going to talk about 
today--when it comes to very small systems, this is the Parrot 
Bebop, which weighs just over a pound and is actually an 
incredibly advanced UAV or drone.
    And so what I wanted to talk about is I think we can start 
somewhere and instead of having to regulate and integrate 20-, 
30-, and 40-pound systems or 50-pound systems into our national 
airspace all at one time, what I would at least bring to 
discussion is a possibility of taking very small lightweight 
systems, as many other countries in the world have done. You 
know, there is somewhat of a precedence around sub-2 kilogram 
systems because they carry the least amount of kinetic energy, 
they have the least risk-based approach that--the least chance 
of causing any harm, and so--all right. We all saw a drone fly. 
Fantastic. Incredible.
    Chairman Smith. I was hoping you would fly it over the 
whole room, not just in one location.
    Mr. Guinn. Well, you said no haircuts. We could have----
    Chairman Smith. I said no haircuts earlier but I--he could 
have done it----
    Mr. Guinn. We could have arranged that. No--I--so the point 
that I want to make today is that if we start somewhere, as 
many other countries have, with the smallest, lightest weight 
systems, we are basically using a proportional and risk-based 
system for regulation so that by integrating today or as soon 
as possible for commercial use small, sub-2 kilogram systems, 
we can now start gathering thousands of hours of flight time 
figuring out what are the issues when you are actually using 
these things in the national airspace, not just these FAA test 
sites. And I think that is something that could potentially 
bridge our gap while we are figuring out, okay, now how do we 
integrate the next heavier class? Great, we learned a lot from 
these little tiny ones----
    Chairman Smith. Um-hum.
    Mr. Guinn. --and while we are learning a lot from the 
little tiny ones, we are capturing the vast majority of the 
economic benefit of commercial UAVs that can do power line 
inspection, that can have geo-fences set up, they can return to 
their home location and land themselves. They log every 
parameter of the flight in real time. These small systems can 
be saving wildfire firefighters' lives, they can be saving the 
lives of people that are flying full-scale helicopters over 
power lines simply to take pictures of the power lines. They 
can be used for a myriad of situations where they can save 
human lives.
    So that is all I wanted to say today is that, you know, 
maybe we can start somewhere, integrate the lightweight 
systems, use that for data collection so that we can see what 
happens in the real world, and also satisfy some of that 
economic benefit that all those other countries are 
experiencing right now.
    [The prepared statement of Mr. Guinn follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Smith. Thank you, Mr. Guinn. Good suggestions.
    Dr. Hansman.

               TESTIMONY OF DR. JOHN R. HANSMAN,

                     T. WILSON PROFESSOR OF

                 AERONAUTICS AND ASTRONAUTICS,

          MASSACHUSETTS INSTITUTE OF TECHNOLOGY (MIT)

    Dr. Hansman. Chairman Smith, Ranking Member Bonamici, 
Members of the Committee, thanks for the opportunity to be here 
today.
    As you can see--it is sort of hard to follow the demo, but 
as you can see, UAVs are actually one of the most exciting 
areas in aerospace and particularly aeronautics today. You 
know, the same technologies that we use to enable these cell 
phones, the miniaturization of processing sensors, coupled with 
flight control algorithms, et cetera, enable incredible power 
in very--you can see in the stability of the vehicle high 
performance in very small packages.
    Today in my office back at MIT in the basement I have two 
teams of students building new UAV concepts, so it is a real 
exciting area.
    The thing to remember about UAV integration in the NAS is 
that there is a huge spectrum of UAV sizes ranging from a few 
grams up to, you know, hundreds of thousands of pounds. And it 
is important to note that one size isn't going to fit all. We 
have to have different concepts of operation for integrating 
different types of UAVs into the NAS.
    I will break it into just four categories. We have the 
small UAS operating at low altitudes within line of sight of 
the operator. We actually know how to do that today. We have 
been doing it for years and we really just need to get going 
and get that enabled. That is what you have heard from some of 
this. But there are multiple other categories. You have high 
altitude UAVs, sort of the typical UAVs the military will want 
to operate. We also sort of know how to do that. We sort of 
developed operating rules. They are normally operating above 
where most of the manned airplanes are. It is not too tough a 
problem.
    The two more challenging areas are small UAVs that are 
being operated beyond the line of sight of the operator so you 
don't have the visual feedback. You are going to rely more on 
algorithms. You are going to rely more on the technology. And 
the toughest area is actually UAVs whose missions require that 
they operate in the same airspace that manned airplanes need to 
operate. And frankly, we don't have good what we call concepts 
of operations for either the small UAS beyond line of sight or 
the larger UAS operating in that airspace.
    There has been so much focus on the small UAS that we 
really haven't done the research to enable the concepts of 
operation. And you need concepts of operation in order to guide 
the research, to develop the standards, to work out the rules, 
to figure out the human factors. You know, for example, if we 
have UAVs operating as IFR aircraft in the system today, how 
does the air traffic controller think about that UAV? How do 
they communicate with them? Do they call them--do they call the 
operator up on a landline? Is there some relay? What happens 
when there is a loss of communication? How do they think about 
it? And it is actually a tough thing for the FAA because there 
are a lot of policy issues. For example, who do you give 
priority to? Do you give priority to the manned airplane or do 
you give the priority to the UAV airplane? While we would 
normally say give it to the manned airplane but what if the UAV 
airplane is doing a life-critical mission and the manned 
airplane is on a sightseeing tour? Who should have priority? So 
there are a lot of questions here.
    So most of my comments are in my prepared remarks but I 
would just say I think the takeaway is that we really need to 
develop the con ops and we are really behind the eight ball. We 
really haven't been working the harder problems of the fully 
integrated UAS and some of these issues of the beyond line of 
sight. I would note that I am encouraged by, for example, the 
work that NASA has started on UTM concept, beyond line of 
sight, so they are starting to attack some of those problems.
    So thank you for the opportunity.
    [The prepared statement of Dr. Hansman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Smith. Okay. Dr. Hansman, thank you for those 
comments.
    The Committee is going to stand in recess until after the 
series of three votes, and when we return, we will go 
immediately to our questions. And sorry for the inconvenience. 
I hope we are back within about 30 minutes if you all want to 
take a break until then.
    [Recess.]
    Chairman Smith. The Science Committee will reconvene and we 
will now begin our questions, and I will recognize myself for 
that purpose.
    Dr. Waggoner, Mr. Williams, let me direct my first question 
to you all, which is this: What is a realistic deadline for 
integrating the drones into the National Airspace System? I 
mentioned in my opening statement that it appears that the 
deadline has slipped but what can drone users and even the 
American people, the wider audience, what is a realistic 
deadline for that integration? Dr. Waggoner and then Mr. 
Williams.
    Dr. Waggoner. So, Chairman, I would answer that right now 
we do have a level of integration, so as--for public aircraft 
they are flying every day. We are--you know, NASA does research 
but we are also users and we have unmanned aircraft. So for 
civil applications, we are working very closely with the FAA 
and RTCA 228 to verify and validate these key technology 
barriers, the sense-and-avoid, the radio communications----
    Chairman Smith. Right.
    Dr. Waggoner. --the displays for the ground control 
stations to allow the FAA to determine these minimum 
operational performance standards.
    Chairman Smith. Okay. And, Mr. Williams, when might we 
expect the FAA to propose some rules?
    Mr. Williams. Well, the FAA is working closely with our 
administration partners in the rulemaking process, and we are 
doing everything we can to get that small unmanned aircraft 
rule out. But our main focus is to get it right.
    Chairman Smith. Okay.
    Mr. Williams. You know, we--the rulemaking process is 
deliberative----
    Chairman Smith. I understand. When do you think you might 
get that out?
    Mr. Williams. I at this point can't give you a firm 
deadline. We are still working on the internal discussion----
    Chairman Smith. Do you have a goal in mind? I mean you have 
got a lot of people across the United States waiting and do you 
have any kind of working deadline or working goal?
    Mr. Williams. Our goals are to get it out as quickly as we 
can as long as we get it out right----
    Chairman Smith. Okay. Is it likely to be this year or next 
year?
    Mr. Williams. I can't speculate. My own personal hope is 
that we get it out as soon as possible, but, you know, it has 
got to go through the regulatory process that has been put in 
place by Congress and we are working our way through that.
    Chairman Smith. Okay. And I am going to pressure you one 
more time. You are slipping off my question here. How long does 
the regulatory process normally take in a situation like this?
    Mr. Williams. Well, you have got to understand this is a 
very complex rulemaking. You are having----
    Chairman Smith. Never mind. Never mind. I can tell I am not 
going to get the answer that I was hoping for but we will take 
your word for expediting the process as much as we can.
    Dr. Lauber, you mentioned this in your testimony a while 
ago, but what technology is needed to be prioritized before the 
NAS integration? What are the----
    Dr. Lauber. Well, I refer to what we believe is probably 
the highest, and I think a couple of the other witnesses also 
mentioned the need for technology that provides the equivalent 
of see and avoid, the sense and avoid technology that needs to 
be in place for full integration of a wide range of these 
vehicles into the aviation system. That would be the highest 
that I would----
    Chairman Smith. Okay. Thank you. Mr. Wynne and Mr. Guinn, 
what is the private sector contributing to this integration 
process? We have the government on one side--maybe not on one 
side but as a part of the process, we have the private sector 
as part of the process as well, but--so what are the 
contributions of the private sector to the integration?
    Mr. Wynne. My belief, Mr. Chairman, is that the industry is 
going to bring the lion's share of the technology solutions, as 
it should. You know, companies like 3D Robotics will--at the 
end of the day they are constructing the devices, they are 
developing the software, and not just directly in the industry, 
the microprocessor speeds are getting faster, et cetera, et 
cetera. So this was really--the spirit of my testimony was 
industry should really be doing the lion's share of this. We 
should be proving the concepts to the satisfaction of the 
regulators in this R&D process.
    Chairman Smith. Okay. Thank you, Mr. Wynne. Mr. Guinn, 
anything to add?
    Mr. Guinn. Yeah. So it--not--to give a specific example, of 
course these companies are, you know, integrating and 
innovating these advanced technologies such as sense-and-avoid 
and, you know, geo-fencing and return-to-home technology, but 
to give a specific example of what 3D Robotics is doing is if I 
fly my drone today outside, you can log into droneshare.com and 
watch my entire flight automatically. So if I am--if I choose--
any of our members around the world choose to make their 
profile public, every single time you fly, that log file is 
uploaded auto-magically from your smart device into the cloud 
to droneshare.com and we are able to now collect tens if not 
hundreds of thousands of hours of data on what are the fringe 
cases, right? That is what we have to figure out. What are the 
fringe cases when you actually start integrating, you know, 
hundreds of thousands of these systems into airspace?
    Chairman Smith. You mentioned the drone we saw a while ago 
in the room was a fairly sophisticated device. What did it 
cost? What is its range? What is its use?
    Mr. Guinn. So that is more of a hobby-grade drone. It is 
called the Bebop. It is incredibly advanced in that it has got 
a full high definition camera that displays on your smart 
device. You can either fly with a smart device or with a long-
range controller. It has got barometric altimeters, it has got 
optical flow sensors to look at the ground and maintain 
positioning, it has got accelerometers, gyroscopes, and a full 
computer that is a flight control system on board and it is 
$499.
    Chairman Smith. And what is the range?
    Mr. Guinn. The range, depending on if you are using a 
smartphone, you are restricted to kind of, you know, Wi-Fi 
range----
    Chairman Smith. Yeah.
    Mr. Guinn. --but if you use their controller, you can get 
up to, you know, a kilometer of range with something like that.
    Chairman Smith. Okay. Okay. Thank you.
    Dr. Hansman, you mentioned during your testimony what your 
students are working on in the classroom and I just wondered if 
we can expect any kind of breakthroughs and some of you might 
give some examples of what they are working on as well, but you 
have obviously seen it from a hands-on approach.
    Dr. Hansman. So I will just give you a couple quick 
examples. One vehicle that our students prototyped two years 
ago is a small UAV that can do a one-hour surveillance mission, 
which is launched out of an antimissile flare canister on a 
military airplane, so it is a two inch by two and a half inch 
by seven inch package. It gets shot out at 300 Gs. This was a 
concept that nobody in the Air Force thought would work. The 
students actually demonstrated it. It is now a developmental 
program where the vehicles they developed are being launched 
out of F-16s right now at Edwards.
    Chairman Smith. I hope that is not classified information.
    Dr. Hansman. No.
    Chairman Smith. That is intriguing.
    Dr. Hansman. Yeah.
    Chairman Smith. Well, thank you all for your answers and 
now I will recognize the gentlewoman from Oregon, Ms. Bonamici, 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our very accomplished panel of witnesses.
    As you heard in the opening remarks I gave, Oregon does 
have three test sites through the Pan-Pacific UAS test range 
led by the University of Alaska Fairbanks. We talked a lot 
about the benefits of the technology. One of the concerns that 
I have heard from constituents in Oregon who are working in the 
developing industry is that there are still some problems with 
advancing the testing of their products, especially true for 
small companies that don't have a solid revenue stream and the 
test range is--and I think Mr. Guinn suggested this--this test 
range is despite being set up to provide a space where the 
development can take place may be prohibitively expensive for 
small companies and prevent--there may be other logistical 
barriers.
    So, Mr. Guinn, could you expand just a little bit on how 
the FAA could work with the test ranges to best address these 
concerns? And then I want to allow time for a couple other 
questions.
    Mr. Guinn. Sure. So really quickly, right now there is not 
really a set understanding of how you even schedule a time to 
go to the range. You know, there is no way to log into the 
system and say when is the next available day? You know, it is 
not a matter of them being too busy because, quite frankly, 
there is not a whole lot of places--or companies using the test 
range. It is more a matter of what is the process? And there is 
a lot of bureaucracy surrounding getting even the approval to 
go to a test range and test fly for a few days so you don't 
know if that is going to be 30 days or 2 months.
    Ms. Bonamici. Well--and I am going to ask Mr. Williams 
about that, too, but first I want to ask Mr. Wynne a question.
    Thanks for your association work and what you have been 
doing. I want to echo the comments already made by the Chairman 
and some of my colleagues about the concerns about the 
rulemaking, and I--somebody made a comment about the proposed--
Notice of Proposed Rulemaking is expected so we are encouraged 
to hear that news. I actually sent a letter to Secretary Foxx 
joined by several colleagues who are concerned about the 
timeline. Of course we want this to be done right and we don't 
want to jeopardize safety, but we are concerned about not only 
workforce development and those challenges of recruiting people 
into this industry if we don't have the certainty, but also for 
these new companies attracting private investment.
    So, Mr. Wynne, have you noticed some particular challenges 
because of the lack of certainty in attracting venture capital 
to the industry?
    Mr. Wynne. Oh, absolutely, ma'am, and I thank you for the 
question. There is--if I am investing money in a project like 
this, I want to know what the go-to-market strategy is, I want 
to know what the return on the investment is. If I don't know 
when I can fly and when I can pursue some of the commercial 
opportunities that are out there, it is a big barrier. So there 
is I think already--the fact that there is money flowing in, 
there is tremendous product being developed, says that this is 
a great investment opportunity and a great business opportunity 
and a job creator, which is something we need to be paying 
attention to. And so while we want to get this right and we 
want to do it once, you know, for the various levels and we are 
on a certain trajectory here, we think that there are 
opportunities immediately that require very little regulation 
and some of our--some of the countries abroad have demonstrated 
this success.
    Ms. Bonamici. Thank you. And I know Mr. Guinn talked about 
that.
    So, Mr. Williams, you heard Mr. Guinn talk about some of 
the possible ways of moving forward. Of course it is not a one-
size-fits-all because of the various sizes and capabilities and 
ranges, but I wanted to ask you first about the testing sites. 
Some companies have suggested maybe performing initial tests at 
a range where their safety can be demonstrated but then maybe 
performing additional tests closer to home. Could that outline 
potential changes--or could you talk about some potential 
changes that could allow some more flexibility, especially for 
the small developers? And then I also wanted you to respond to 
the concern about the small companies having access and being 
able to test.
    Mr. Williams. So, first, the small companies have access to 
our experimental airworthiness approval process, which goes 
back to the manned aircraft process. It is the same regulations 
that are applied. We are in the process of updating that to 
make it a little more user-friendly for unmanned aircraft 
operators to get through that process.
    On the test site front, we have set up a program to enable 
all of the test sites, should they choose to do so, to have the 
authority to issue experimental airworthiness certificates on 
behalf of the FAA, thereby streamlining the process of getting 
a new aircraft into the testing phase at one of the test sites. 
So we think that is a significant benefit that the test sites 
can offer to the industry and we are--you know, we are 
constantly looking at ways to streamline our processes and work 
to enable these new companies to test their aircraft in a safe 
and by-the-rules way.
    Ms. Bonamici. Thank you. And I see my time is expired so I 
will submit my Section 333 exemption question for the record.
    Thank you, Mr. Chairman.
    Chairman Smith. Thanks, Ms. Bonamici.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    And I would direct my question I guess to Dr. Waggoner and 
Mr. Wynne and Mr. Guinn and Mr. Hansman.
    In recent years, agriculture has been one of the bright 
spots in our nation's economy. Can you speak for a moment about 
the potential applications in agricultural settings and what 
benefits these might provide for both producers and consumers? 
Whoever?
    Dr. Waggoner. Well, I could start. I have just a little bit 
of experience. And what we saw some high school students do 
this year who had the challenge of developing an unmanned 
aircraft to survey all--I think it was about a 100-square-mile 
farm, a large farm of corn for European corn borers. These 
kids, incredible kids from all over the country came up with a 
number of different solutions that they showed that there were 
viable solutions that were affordable, usable for the farmer, 
for precision agriculture where they could precisely locate 
where there were issues either with fertilizer or pesticides 
where they needed to be applied and could precisely do that.
    So we saw that as an opportunity that shows that it is--
there is a market out there for that work. And that was--that 
is part of what is behind our more midterm work on this UAS 
traffic management. So allowing the farmer or a commercial 
operation to go into a farm and do that kind of surveillance 
operation at low altitudes very safely and in a way that would 
be very cost effective.
    Dr. Hansman. So ag applications are already ongoing in 
other parts of the world. In Japan, for example, where you have 
very small rice paddies, we are seeing applications there. It 
is considered one of the number one applications. There is 
significant interest on the part of agricultural departments to 
use these vehicles, and in fact they are frustrated by the rule 
like everybody else in that it is difficult for them to get 
exemptions to go off and do experiments. So it is one of the 
big opportunities spaces.
    Mr. Guinn. So if I can maybe provide a specific example of 
a way that even one of these very small lightweight systems can 
provide real benefit to the farmer. So we had one of the top 
private vineyards in Napa Valley contact us and say, hey, we 
have been hearing about these drones; what can we do with them? 
And, you know, everyone talks about the super high-tech ability 
to do hyperspectral imagery and look for water damage and, you 
know, pesticide, but even if you just take it to the really 
simple level, most of these farmers have not ever seen a very 
high resolution look-down image of their vineyards.
    So we went out, we took one of our sub-2KG systems, flew 
around, took a lot of pictures looking down in the back of the 
truck at the farm, stitched those together into a photo mosaic 
which allowed him to see a very high resolution image of the 
crop. And for the generations that they have had that vineyard, 
he looked down and said, wow, look over here in the corner of 
the vineyard here where--see how this is actually a little 
darker green that this whole area? Because you can't see that 
when you are walking the rows of the vineyard because when you 
are up close you don't see that minute differences in the 
green. This must be the fact that there is a slight elevation 
change there, which is sucking more water down to that area. 
That means we need to harvest these grapes 2 to 3 weeks earlier 
than the rest of the vineyard. He then walked us out, took some 
grapes from that area, took some grapes from the rest of the 
vineyard, squished them in a bag, and you could clearly taste 
the difference between the two sets. And he said, before today, 
we never knew that existed. And that happened in two hours.
    Mr. Wynne. Congressman, thank you for the question. The 
numbers that AUVSI put together in 2013, the $82 billion in the 
first ten years after we get access to the National Airspace 
System, we think as high as 80 percent of that could be 
agriculture.
    Mr. Lucas. Absolutely. Dr. Williams, I come from a State 
where the Chamber of Commerce likes for us to use the phrase 
``significant weather events'' occur on a commonplace--in a 
common way, and my home State is making a lot of investments in 
weather-related research. And one of the things that I 
understand is a challenge is this requirement to obtain a 
Certificate of Authorization, COA, or a Section 333 exemption, 
which can be kind of challenging and cumbersome. What is the 
FFA--FAA doing to expedite the approval process for this kind 
of thing?
    Mr. Williams. We are actually working in both areas to 
approve the processing of the approvals. Most of the--
understand that Section 333 approvals are for the aircraft. The 
COA process is for the airspace. In order to operate unmanned 
aircraft you can't really comply with the see-and-avoid rule so 
we have to give you a waiver or authorization to do that. That 
is the COA process. That process is undergoing a revamp inside 
of the FAA. We are in the process of building new software to 
interact with the folks using it. We think that is going to be 
a major step forward.
    We have achieved tremendous amount of progress with our 
public partners in accelerating their approvals. We have 
reduced the amount of overhead for many of the frequent users 
like NASA. They have a much easier way forward.
    On the 333 side we are also working hard to streamline that 
process. We have put together a tiger team that is in the 
process of developing a streamlined and more efficient process 
to move those forward quicker. You have got to understand the 
exemption process was never intended as an approval mechanism. 
It was intended to deal with exceptions, special cases. So we 
are trying to have the--make that up as we go so to speak to 
figure out a way to accelerate it while still--it is a 
regulatory process so there are rules that have to be met as we 
go through it. So we are trying to find the right balance.
    Mr. Lucas. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentleman from Illinois, Mr. Lipinski, is recognized 
for his questions.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing, something we are all very interested in 
and it is critical that we get a handle on this. We don't want 
to--on the one hand, we want innovation to move forward and all 
the opportunities that are brought out for business purposes 
and others, other purposes from UAS, but we know that there is 
a lot of issues also that need to be dealt with.
    And so I wanted to ask Mr. Williams, and anyone else can 
jump in after Mr. Williams if they have anything to add, I want 
to talk about the concern about the number of UAS near-misses 
being reported. My district includes Midway Airport so it is 
especially important to me, also Lewis University Airport is in 
my district. So given the rapid increase in number of small UAS 
in use for both for hobby and commercial purposes, what is 
being done to better understand the risk of UAS collision and 
what is being done to track near misses?
    Mr. Williams. So we are in the process of building a 
tracking system modeled on the way we track the laser incidents 
that have been going on. We are also working hard on an 
education campaign to try to--we believe that most of the 
people that are flying these aircraft near airports just don't 
understand the area they are flying in and of the rules about 
where they can and can't fly. So we have--in partnership with 
the Small UAV Coalition; the Unmanned Aircraft Vehicles 
International, AUVSI; and the Academy of Model Aeronautics, we 
have a campaign ongoing called Know Before You Fly that we are 
working to find any means we can to educate the public about 
where they fly because, you know, primarily the FAA is 
interested in compliance with our rules, and we believe the 
best way to achieve that compliance is through education. So we 
are working hard to make that happen.
    On the research side--I am sorry, you had another question 
about the research?
    Mr. Lipinski. What is being better done to understand the 
risk of----
    Mr. Williams. Right.
    Mr. Lipinski. --UAS collision?
    Mr. Williams. Right. So we actually have started this year 
a research initiative to look into what the potential is for--
or really to assess the risk of an unmanned aircraft to a 
manned aircraft, and that project is just getting off the 
ground this year and we are accelerating it thanks to the 
additional funding that Congress provided us in our research 
budget this year. We should be able to accelerate that and move 
it forward more rapidly than we had been able to.
    Mr. Lipinski. Anything else that any witnesses think should 
be done----
    Mr. Wynne. I just wanted----
    Mr. Lipinski. --that are not being done?
    Mr. Wynne. I just wanted to emphasize that we thank the FAA 
for their help with this campaign to educate. I think in many 
instances it really is an education challenge today. Obviously 
commercial operations are not allowed at this stage until we 
get a rule, but the education campaign is really about keeping 
the UAS under 400 feet, 5 miles from the airport, within line 
of sight, stay away from crowds. It is basic common sense and 
we think that in many instances it is just a question of 
education. We have had tremendous response from the aviation 
community on this. We have got new partners in NBAA, EAA, et 
cetera. Many of the organizations are stepping in and helping 
us get that word out.
    Mr. Lipinski. Thank you. One other thing I wanted to move 
on to before my time runs out is about test sites. The FAA 
established six test sites to enable UAS research, and these 
sites are operating under an agreement that may restrict the 
FAA's role in directing research. So I want to ask, Mr. 
Williams, what steps is the FAA taking to ensure that the test 
sites are being used to address the Nation's top research 
priorities, and are there any barriers that need to be 
addressed?
    Mr. Williams. Back in the fall we released to the test 
sites a list of over 100 research areas that we believe we 
could benefit from having them look into. I think the--there 
has been a lot of misunderstanding about what they can and 
can't do at our behest. Our only rule is that, you know, 
through the procurement rules we have to--if we are going to 
direct one of our contractors--and the Other Transaction 
Agreements we have with them amount to a contract between them 
and us--if we are going to direct work, we have to pay for it. 
So--but we can also agree to work together with in-kind 
resources through these agreements.
    So the--but the bottom line is to all of it, all we have to 
do is document it in those agreements and we can work together 
on any research project that is of interest to those test 
sites, and I believe that, you know, we have communicated that 
to them and I believe that we have--they understand the 
situation pretty well at this point.
    Mr. Lipinski. All right, thank you. I have other questions 
that I will submit for the record.
    I yield back. Thank you.
    Chairman Smith. Thank you, Mr. Lipinski.
    On behalf of the new Member of the Committee, Barbara 
Comstock of Virginia, without objection I would like to put a 
letter from a Michael Kronmiller in the record. And without 
objection, so entered.
    [The information appears in Appendix II]
    Chairman Smith. The gentleman from California, Mr. 
Rohrabacher, is recognized for questions.
    Mr. Rohrabacher. Thank you very much.
    Now, let me see if I am getting all of this straight now. 
The FAA actually will approve Mr. Guinn's drones, their design, 
and their capabilities and approve them to actually go in the 
air before you are permitted to fly them, is that correct? Mr. 
Guinn? Mr. Williams? Who can answer that?
    Mr. Williams. Sir, they are approved--the two processes run 
in parallel so that when the approval to fly the aircraft 
without an airworthiness certificate that is done through the 
Section 333 exemption process----
    Mr. Rohrabacher. You say that approval is based on the 
design of the aircraft and its capabilities, is that right?
    Mr. Williams. Yes, and the operations. And then they----
    Mr. Rohrabacher. All right.
    Mr. Williams. They come in and say, okay, we want to 
operate it in this particular area----
    Mr. Rohrabacher. Right.
    Mr. Williams. --and our traffic organization assesses 
whether or not it is safe for them to operate, and so they are 
looking for, you know, conflicts with their manned aircraft.
    Mr. Rohrabacher. Okay. So this is both FAA in both cases? 
One is the safety of the equipment itself and then the safety 
of the actual instance that you--they want to use this specific 
situation. And where--are we having any trouble, Mr. Guinn, 
with the actual approval of the system itself meaning your 
crafts that you can bring before them for approval? Is that--am 
I understanding this, do you think that should be streamlined 
or----
    Mr. Guinn. Yes, sir. So when one of our customers wants to 
use, say, a system for, you know, looking at photo mosaics of a 
farm so that they can see where the water is going and when to 
pick the grapes, they needed to take the system and get a 
Section 333 exemption, which is where the FAA determines is 
this aircraft----
    Mr. Rohrabacher. But once you have gotten that from this--
to do that----
    Mr. Guinn. Well, first you have to get that.
    Mr. Rohrabacher. That is what I mean----
    Mr. Guinn. And so far, of all the companies----
    Mr. Rohrabacher. But after that you don't have to get it 
again, right? Is that correct?
    Mr. Guinn. For the Section 333. So so far 14 have been 
granted.
    Mr. Rohrabacher. Out of how many?
    Mr. Guinn. Is that correct, 14?
    Mr. Rohrabacher. Out of how many requests?
    Mr. Guinn. Out of everyone in the country that wants to fly 
their drones.
    Mr. Rohrabacher. Oh, is that right, 14?
    Mr. Williams. Right, but the process is being improved and 
they are going to be coming out a little more frequently----
    Mr. Guinn. So it is difficult first to get it, 14 out of 
however many thousand----
    Mr. Rohrabacher. All right.
    Mr. Guinn. --and then once you have a Section 333, you have 
to get the Certificate of Authorization to fly in a specific 
area, which is----
    Mr. Rohrabacher. So what we have here is technology and the 
technological capabilities are far surpassed the ability of 
making decisions about standards and rulemaking--general 
rulemaking, and that is what we have to catch up with. This 
isn't the first time that has happened in history, I am sure, 
and I hope that--can you tell me--can anyone here tell me which 
is more dangerous, a small privately owned airplane flying from 
here to there or a drone flying from here to there? Anybody 
want to----
    Mr. Guinn. I have had several friends that have been in 
helicopter crashes, actually specifically test--you know, going 
out the side of the door, taking pictures of power lines. So, 
you know, I can't speak to the factual evidence here, but in my 
estimation, having a 2- or 3-pound drone flying over national 
grid power line taking photos, if they were to fail in any way, 
shape, or form, it doesn't have to worry about auto rotating 
down to the ground when they are already flying outside the 
chart. All it does is bounce off the power line, fall to the 
ground, you take another one out of the truck and keep 
inspecting. So my guess is that that would be much more safe 
and would allow us to start saving lives today.
    Dr. Hansman. We have actually done analysis on this and it 
really depends on the size of the drone. So for a small drone, 
the risk to people on the ground and to people in the air is 
much lower.
    Mr. Rohrabacher. Has there ever been anybody hurt from a 
crashing drone, on the ground?
    Mr. Guinn. I mean there has been ouch, you hit me in the 
head with that drone but----
    Mr. Rohrabacher. All right.
    Mr. Guinn. --you know.
    Mr. Rohrabacher. Let me ask about the--how the FAA is 
planning to do this, these testing areas, test sites that have 
been established to help you try to determine whether or not 
these pieces of equipment should be approved. Could somebody 
tell me what they do at those test sites?
    Mr. Williams. Well, the primary intention for the test 
sites is to provide an opportunity for manufacturers to do 
their developmental tests and evaluation in support of moving 
forward toward approval.
    Mr. Rohrabacher. And that is what the--that is what we have 
spent $11 million on that, providing that to you last year and 
now that budget has been increased, is that right?
    Mr. Williams. No, sir. There has not been any appropriation 
to the FAA to directly support those test sites.
    Mr. Rohrabacher. Okay.
    Mr. Williams. We funded it out of our existing 
appropriations.
    Mr. Rohrabacher. Is it possible that when we have these 
companies that are seeking profit, which is a good thing, and 
they have technology, which is a good technology, do you think 
that in order to facilitate and to move the process along that 
maybe it would be good to have the companies reimburse the 
government for the specific tests or be able to certify certain 
people to conduct those tests other than government employees?
    Mr. Williams. I believe that is the actual intent of the 
test sites. The cost for running the test sites is currently 
being borne by the States who sponsored them and they are 
getting compensation from the companies who come to them for 
testing, or the government. In a couple cases there have been 
some government testing done there. The FAA doesn't fund the 
test site operating costs.
    Mr. Rohrabacher. Okay.
    Mr. Williams. They are independently run.
    Mr. Rohrabacher. We only have 14 of these things approved 
so I can't imagine we have had much revenue so far, but I would 
hope that----
    Mr. Guinn. So there is a small number of companies covering 
those costs, which is why it is prohibitively expensive to go 
to those sites to test----
    Mr. Rohrabacher. Well----
    Mr. Guinn. --versus going to Canada or Mexico, our 
neighbors.
    Mr. Rohrabacher. All right. Thank you very much, Mr. 
Chairman.
    And by the way, just to note, my family, which are catching 
a plane back to California, just happened to be coming in at 
the time when that drone was flying around and I guess they--my 
son got an interesting opinion of what his father does for a 
living so----
    Dr. Hansman. And it kind of shows you how these vehicles 
actually stimulate the interest of the sort of next generation 
of young people.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Connecticut, Ms. Esty, is recognized 
for questions.
    Ms. Esty. Thank you, Mr. Chairman, and to the Ranking 
Member for having this hearing today, and thank you all for 
your testimony.
    Unmanned aircraft systems have already significantly 
impacted, as we have discussed today, particularly in the field 
of agriculture, changing the way farmers do business and 
increasing yields and decreasing the use of pesticides and this 
is all a very good thing. And coming from the State of 
Connecticut where we have been longtime leaders in aviation and 
aerospace, we are very excited about these opportunities. But 
we also live in an incredibly congested airspace and some of us 
that include Mr. Lipinski and I serve on the Transportation and 
Infrastructure Committee where we are having hearings on the 
same issue.
    So I would like to turn to that a little bit and get you to 
help us understand how, on the R&D side, what are the risks we 
should be looking at? What should be the research priorities to 
avoid those issues which are a little different than the 
agricultural setting, those are the ``what do you deal with 
LaGuardia to Logan'' issues. And particularly as we follow up 
on the exciting possibility of improving our infrastructure, 
the grid, looking at lines, these are very important 
opportunities, but again, they do pose risks, particularly in 
the congested airspace.
    So anyone who wants to jump in and help us guide through 
research capabilities, what are the risks we face, and on the 
R&D side what should we be prioritizing to address those risks 
outside of regulation, actually understanding?
    Mr. Guinn. So--go ahead.
    Dr. Hansman. So from a risk standpoint if you look at the 
risks of UAV operations, we don't have the risk to the 
passengers on board, so that two risk areas are ground impact 
hazard, people being hurt by drones coming out of the sky, or 
midair collision risk. The ground impact hazard, you can do the 
analysis, and it really scales significantly by vehicle mass. 
So we--and studies have been done and you can look at the risk 
versus the reliability required to compare those with manned 
airplanes and set standards there. From the airborne collision 
risk standpoint, it also scales with size.
    So for very, very small UAVs we design airplanes so that 
they can take bird strikes. So an interesting research question 
is what is the threshold mass for UAV for which the existing 
regulatory guidance on bird strike criteria would allow you to 
work there? Above that size you need some method to separate 
the airplanes. The easy thing is to do segregation, okay, and 
that is where we are working now. The hard is to come up with, 
as I said before, concepts of operation that would allow you to 
operate in the same airspace and be coordinated in some way, 
and that is really where we have got to work is the concepts.
    Mr. Guinn. And I would completely agree with that, and I 
think that is why many other countries have said, you know, if 
it is less than 2 KG, it is going to be similar to a bird 
strike which planes are already designed to handle in that 
worst-case scenario if that were to happen.
    And I think the other thing that we need to do, like I said 
before is, you know, by going to FAA test sites with a team of 
Ph.D.'s flying a perfectly assembled drone, we are not figuring 
out what the fringe cases are. We are not figuring out what the 
real risks are when you integrate thousands of these systems. 
And the concept of integrating thousands and thousands of 
systems that are far beyond what would be considered a bird 
strike is extremely scary. So to me starting with those 
lightweight systems so that we can collect all that data and 
start figuring out, okay, here are the fringe cases, here are 
the failure points, here are the risks. Now, how do we mitigate 
those for the next set of heavier aircraft?
    Dr. Lauber. And I might add if I may that one of the four 
high priority most difficult research projects we identified in 
our study had to do with these very issues, the question of 
verification, validation, and certification and how you go 
about setting appropriate standards of risk that apply to these 
light small UAS systems in a world that was basically created 
to deal with manned aircraft systems of much larger mass. It is 
a very different world and demands very high priority in our 
view.
    Dr. Waggoner. And as Dr. Hansman mentioned, the harder 
problem of interoperability, particularly with a larger 
aircraft, so that is something that NASA has taken on and we 
are doing that research, so the sense-and-avoid work. But also, 
as you--the sense-and-avoid systems work, how you display that 
information to the pilot so that they can make informed 
decisions, and we are doing research in both of those areas in 
support of the FAA's standards development.
    Ms. Esty. Thank you. That is all very helpful. And those 
who have thoughts on how this might integrate with the NextGen 
system and if there are issues around UAS that we should be 
thinking about as we are addressing NextGen as part of the FAA 
authorization, I would love to follow up with----
    Dr. Hansman. I would just say we need to leverage off of 
our investment in ADS-B and some of the communications 
architectures.
    Ms. Esty. Thank you very much.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from California, Mr. Knight, is recognized 
for his questions.
    Mr. Knight. Thank you, Mr. Chairman. Thank you for having 
this esteemed panel. I have just a couple statements, maybe a 
quick question.
    You know, the UAS systems have helped quite a bit. I know 
that these aren't something new; they have been around for 50 
or 60 years. I can remember the HiMAP program which helped us 
get into the fourth and fifth generation fighters that we have 
today. And also I appreciate what they do to help pilots have a 
safer flight. The G-CAST system that we are working on right 
now in the United States Air Force and the Navy, we put that on 
a UAS system because flying an airplane into the ground was not 
what a pilot wanted to do. So you put that on a UAS and 
hopefully the software worked, which it did, and the plane 
didn't crash, and then you might get a test pilot to do that.
    But my questions are more in line with privacy and how 
Congress is going to move forward in the next 20 years, 
especially when it comes to law enforcement. And law 
enforcement has been part of the UAS discussion over the last 
ten years especially. If you have a helicopter that is chasing 
a bad guy and he flurs that area down there, we have decided 
that that is okay, but if you used a UAS, we have decided that 
that is probably not okay. And so the discussion is going to 
go--and I can already see--Mr. Williams, you probably want to 
answer this--is how do we go about that? How is the lawmaking? 
How is the rulemaking going to be when we talk about UAS in the 
law enforcement arena?
    Mr. Guinn. I think that is a great question. Thank you. And 
I think for law enforcement it is probably the easiest to solve 
because you just simply say these are the rules for whether or 
not you can engage with a UAS and whether or not that evidence 
can be, you know, admitted into a hearing because obviously the 
point of law enforcement is to stop crime and the only way to 
stop crime is to be able to convict, and the only way to be 
able to convict is to use admissible evidence, right? So I 
think that one is pretty simple to say this is what is allowed, 
this is not--what is not allowed. You have Notice of Proposed 
Rulemaking, people vote on it, and decide.
    I think the stickier point is the guy that is not being 
regulated, the hobbyist who is, you know, using these systems 
to peek into somebody's window, right? And there is a lot of 
people that have those concerns and they are valid concerns. 
But I would hearken this back to when they--when phone 
manufacturers started putting cameras in cell phones. People 
were very concerned about this. Samsung, as a matter of fact, 
there was a rule that you could not have a camera-equipped 
phone on the campus of Samsung, right? Now obviously every 
single employee has a camera in their pocket.
    And so I think that people realize with this new technology 
that there is probably not tens of thousands of would-be 
criminals just waiting for this perfect technology to be able 
to spy on each other and I think this is a matter of education. 
You know, what can you get at the Apple Store? Wireless baby 
monitors and drop cams and things like that that could easily 
be set up silently and very small and not noticeable in 
somebody's house versus a loud, blinky, lit up drone flying out 
the window.
    The reason--I mean that is--you know, so I think it is just 
a matter of education and a matter of saying, you know, let's 
leverage existing anti-invasion of privacy laws and make sure 
that those laws are, you know, applied to whatever technology 
is being used to invade somebody's privacy, and there should be 
consequences.
    Mr. Knight. And I guess what I would follow up on is that 
we already have an existing technology that does this, that 
chases bad guys from the air. So I guess, Mr. Williams, you can 
answer this. Would the FAA decide that they would follow the 
same exact rules as maybe an air unit does in today's law 
enforcement? Would they follow the same rules or would they be 
able to do different things because, you know, a helicopter 
can't fly like a UAS can, a helicopter can't do the things that 
a small UAS can do. So that is--I think will be a question for 
Congress is are we going to lax those rules to make it more 
available for the troops on the ground, the cops on the ground 
to use it in a different manner?
    Mr. Williams. Well, one of the initiatives we took back in 
2012 was to set up a special process called for in our 
reauthorization of 2012 for law enforcement and we have been 
working directly with individual law enforcement agencies 
around the country. There are some that have had some 
spectacular success with their aircraft and it is a priority 
for my office to continue to support law enforcement use of 
unmanned aircraft and find ways to approve their operation. And 
I have two individuals who do that as there full-time jobs so 
we very much support finding ways for law enforcement to use 
unmanned aircraft safely.
    Mr. Knight. Thank you.
    Mr. Wynne. Yeah, Congressman, I just wanted to point out 
that AUVSI, in an earlier effort, we did work with the 
International Association of Chiefs of Police to develop 
guidelines. I would be happy to submit those for the record.
    Mr. Knight. Thank you. Thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Knight.
    The gentleman from Washington, Mr. Newhouse, is recognized 
for his questions.
    Mr. Newhouse. Thank you very much, Mr. Chairman, and thank 
all of you for being here today to enlighten us about this very 
exciting and important subject.
    Being in agriculture, I do share the vision for the future 
and how we can produce our crops more efficiently and 
effectively.
    But a couple questions, I think that, Dr. Lauber, if I 
might start with you, I have heard a couple things, at least 
two today that talks about the potential of the unmanned 
industry as far as both public and privately, and then also the 
importance of safety of integrating these unmanned systems into 
the national airspace. And so speaking about that and the--and 
realizing the speed some of these innovations are happening, it 
certainly seems that safety should be a primary focus of what 
we are talking about. And so I am curious about the investment 
of harmonizing these systems with manned platforms, 
specifically talking about collision avoidance systems in 
general, perhaps specifically an ADS-B transponder, those kinds 
of things. If you could talk a little bit about that, I would 
be appreciative.
    Dr. Lauber. I think that you have already addressed several 
of the key considerations that we took up in our report. 
Clearly in order to achieve success in integrating these 
systems into the airspace and then realizing the potential 
benefits of these systems, we have to do it in such a way that 
safety is not adversely impacted. It will not fly, so to speak, 
to introduce these things in such a way that it imposes or adds 
risk to the system. Dr. Hansman has already outlined a couple 
of the key risks that have to be understood, collision with 
other aircraft and collision with the ground and trying to 
systematically understand those things is very important. And 
the FAA's effort to undertake a systematic analysis of risk as 
it applies to these systems is an equally vital part of this.
    You know, one of the top four and most difficult research 
projects that we identified was what we called continuous 
operation without human intervention, and in order for UASs to 
do this, basically a UAS must have the capability of doing what 
any manned aviation system does in the present environment. So 
you have got to make up for all of the missing sensors, taking 
people's eyeballs out of the vehicle. You have to somehow 
substitute for that. The ability of humans to make decisions in 
real time based on unexpected or unanticipated situations, you 
have to be able to build that into the technology in order to 
maintain the levels of risk that we have now. So these are of 
fundamental importance as far as our study is concerned.
    Mr. Newhouse. Thank you.
    And then just another question, I can't let the FAA off the 
hook totally, in a recent interview in Business Insider 
magazine, the CEO of Amazon Jeff Bezos was asked a question 
about when they might possibly be delivering packages using 
these systems, and maybe you have read that article, but it 
highlights some of the--perhaps some of the, lack of term, 
overregulation in the R&D of--in the United States. He answered 
a longer answer than I have time for but the technology is not 
going to be the long pole; the long pole will be regulation. 
And so, as was already talked about with, what, a dozen or 14 
approvals already for commercial UAS, could you explain why 
there may be hundreds or even thousands in other countries that 
have been approved and here we lag behind so to speak?
    Mr. Williams. Well, I am not sure I agree that we have 
lagged behind. Yes, we don't have a specific rule for small 
unmanned aircraft but we also have the most complex airspace in 
the world, we have the largest number of general aviation 
operators in the world, and it is a different regulatory and 
legal framework here than in some of the other countries. Part 
of my job is to interact with my counterparts from around the 
world and understand what they are doing and benefit from their 
experience so we are--and we are taking those things into 
consideration as we move forward.
    There is a--there are multiple paths for commercial 
operations. We have two operators approved up in Alaska. We are 
using certificated aircraft that have gone through the manned 
certification process, adapted for use by--you know, for an 
unmanned aircraft. Obviously all the rules for unmanned--for 
manned aircraft didn't apply to them. But there are commercial 
operations available that way in addition to this new way we 
found through the Section 333 process that is designed to 
bridge us to that regulatory environment we are trying to 
achieve with the small unmanned aircraft rule.
    Mr. Newhouse. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Newhouse.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    And I don't know where to start. Are the permits issued 
from the--there has been--let me understand this. I came in 
late. So there has been 14 permits approved, is that right?
    Mr. Williams. For small civil aircraft operators, yes. We 
have two certificated aircraft that are operating commercially 
in Alaska and there are a tremendous number of--over 700 public 
aircraft operators, in other words government operators that we 
have approved.
    Mr. Weber. Are they based on size, Mr. Williams? A category 
1 might be that you could fly up to something that is 200 
pounds, 500 pounds, or is there a weight limit?
    Mr. Williams. Well, the FAA in general takes a risk-based 
approach to all our approvals and so we have--the reason there 
are different levels of approval is there are different levels 
of risk. So for these very small ones that we are now approving 
through an exemption process, we are essentially--because of 
their size, weight, and operating environment, approving--
basically waiving most of the manned aircraft rules so they 
don't have to comply.
    Mr. Weber. So what is a small weight?
    Mr. Williams. Under 55 pounds was legislated in the--in our 
2012 reauthorization--was defined as small under that 
legislation.
    Mr. Weber. Are there approved operators that get above 55 
pounds?
    Mr. Williams. Yes, sir. The--on the public aircraft 
operations side they go up to--the Global Hawk aircraft that 
both NASA and the DOD fly is approximately the same size as a 
727.
    Mr. Weber. Are they able to cross into Mexico and Canada 
without violating airspace issues?
    Mr. Williams. I believe the DOD flies around the world with 
their unmanned aircraft and they are following the ICAO rules 
for manned aircraft the same way as they do for----
    Mr. Weber. What about private companies? Have they crossed 
from the United States into Canada?
    Mr. Williams. We currently don't have any approved private 
companies that are operating across the borders, and there is a 
committee--or what they call a panel has been formed at ICAO to 
develop the international standards and recommended practices 
for unmanned aircraft crossing between countries. So that 
regulatory framework internationally is being developed.
    Mr. Weber. So when a company gets approval, has--it is 
permitted or licensed? What do you call it?
    Mr. Williams. Well, we called the pilots--getting 
certificated I guess would be the correct term.
    Mr. Weber. Certificated, okay. Does that process of 
certification get reviewed after one year, 2 years?
    Mr. Williams. From a standpoint of--if the aircraft is 
approved through a type certificate, then it is indefinite. 
There is no restriction on that.
    Mr. Weber. So----
    Mr. Williams. For the processes that we are doing through 
the exemptions, those are good for 2 years.
    Mr. Weber. Okay. So if a UAV--if one of these units falls 
out of the sky and hits a car on the ground, the liability 
insurance--do people market insurance for these things?
    Mr. Williams. Yes, sir. There is insurance available 
through the multiple different insurance companies.
    Mr. Weber. Okay. The little cameras on it--and I know, Mr. 
Guinn, you talked about the high-definition camera. Are they 
able to transmit back video back on the ground? Is that 
standard--pretty much standard?
    Mr. Guinn. Yes, absolutely. Even what Baptiste was flying 
today from Parrot it transmits high-def video back to your 
tablet.
    Mr. Weber. Is it captured, for lack of a better term, in a 
little black box? Does it record its own?
    Mr. Guinn. There is a myriad of ways to do it so we can 
actually record on the ground, at the same time we are 
recording a much higher bit rate stream on the camera in the 
air. So for later review if you need to zoom into an image and 
check a power line or something like that----
    Mr. Weber. But you said it had a computer on it. Does it 
have the capability of storing that right on board?
    Mr. Guinn. Absolutely. Yeah. Most of the cameras that are 
on board have their own memory card slots and you are storing 
it right on the memory card.
    Mr. Weber. Has--and I know this is getting way out there, 
what are people able--I mean you think about people hacking in 
to different things. Are they going to be able to hack into 
these and commandeer these?
    Mr. Guinn. That is a good question. I think that, you know, 
probably for Dr. Lauber a much better question.
    Dr. Lauber. I will just add that cyber physical security is 
one of the key issues that we identify in our report. It is a 
concern and it needs to be addressed from the outset.
    Mr. Weber. How many drone manufacturers are there? Ten, 
twenty----
    Mr. Guinn. At least hundreds.
    Mr. Weber. Hundreds?
    Mr. Guinn. Um-hum. Yes.
    Mr. Weber. How many in the United States?
    Mr. Guinn. Much less than anywhere else in the world, so I 
mean----
    Mr. Weber. Okay.
    Mr. Guinn. --3D Robotics, our company is the largest and 
then that is----
    Mr. Weber. One final question. You see planes fly over with 
the number on the bottom of it, you can identify the number. 
Are the drones numbered, identified?
    Mr. Guinn. They are not today but that is one of the 
considerations, especially for the heavier systems, to have a 
tail number.
    Mr. Williams. Well----
    Mr. Weber. Okay. And let me go one more question if I may, 
Mr. Chairman. So Google has a car that they can drive they say 
wherever without--can you program one of these drones to go 
somewhere and back and basically never have a--never touch it?
    Mr. Guinn. Absolutely, yes, just right from your smartphone 
if you need to.
    Mr. Weber. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you, Mr. Chairman. And I would like to 
thank all the witnesses for showing up today and bringing their 
great testimony. I had the opportunity to read the written 
testimony. This is one of those days where another committee 
meeting with votes required conflicted with the early part of 
the schedule so some of us didn't get to see the demonstration 
of your vehicle. And if the Chairman would indulge us, I would 
be interested and I think some of the others would be 
interested in seeing it.
    Chairman Smith. Do we still have the vehicle and the pilot?
    Mr. Guinn. Yeah, we can get it back up in the air in just 
about 1 minute.
    Mr. Posey. All right. That will work.
    Chairman Smith. All right. Let's have another quick brief 
demonstration but perhaps you can use more airspace this time, 
too.
    Mr. Guinn. He is going to get saucy with it, Baptiste.
    Chairman Smith. And we will define haircuts within 2 feet 
of someone's head, so if you can stay above that, that will 
be----
    Mr. Guinn. He is going to show you leaf blower mode with 
your papers on your desk.
    Chairman Smith. We didn't give you much advanced notice 
here but----
    Mr. Guinn. It will take him about 30 seconds or 45 seconds 
to connect to the Wi-Fi network before he can take off.
    Chairman Smith. Okay.
    Mr. Guinn. Did you have any quick questions in the 
meantime?
    Mr. Posey. Silence is golden in this committee, too.
    Mr. Guinn. Okay. Perfect. Sounds good. Another fun fact is 
that he will be piloting this drone from his iPhone, as well as 
seeing a live HD feed right on his phone that is being 
digitally stabilized, so pretty cool for 500 bucks.
    Mr. Posey. We will all have one by the next time you come 
and testify here.
    Chairman Smith. Well----
    Mr. Guinn. My kids got them for Christmas. And that is your 
worst-case scenario, oh, my gosh----
    Chairman Smith. You know, maybe----
    Mr. Guinn. --drone crash. Drone crash.
    Chairman Smith. Maybe we won't fly over people.
    Mr. Guinn. Yeah, well, while he is flying over, you just do 
this just in case.
    Chairman Smith. Yeah.
    Mr. Guinn. A fringe case is when you are asked to fly a 
drone in 60 seconds in front of Congress.
    Chairman Smith. Yeah.
    Mr. Guinn. This is the kind of data we need to be 
collecting out in the real world.
    Chairman Smith. We need to make allowances for this. Tell 
you what, just to take the pressure off of you, maybe we ought 
to--okay.
    Mr. Guinn. All right. Here we go.
    Chairman Smith. Oh, there we go. Okay. Okay. Can you head 
towards Mr. Posey and just keep it right out of--there we go.
    Mr. Guinn. Leaf blower mode, here we go. Baptiste, can I 
push it around a little bit, show its stability or do you want 
to? Yes, in a very French and stylish way. Thank you.
    Chairman Smith. Thanks again for that.
    Mr. Posey, anything else?
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Smith. Okay. The gentleman from Illinois, Mr. 
Hultgren, is recognized.
    Mr. Hultgren. Well, thank you all for being here. This is 
important and interesting and I really do appreciate the work 
that you are doing and we do want to be helpful in making sure 
we do this well.
    With development and usage, I know of UAS expanding it 
certainly is crucial that we understand the research our 
government is doing, especially the research that will affect 
the rulemaking process FAA is currently undergoing. From a 
competitive standpoint, it is also crucial that we do this 
right so that we are not encouraging businesses to move 
elsewhere or denying access to researchers for the best, most 
cost-effective tools that they need to do their work.
    To be frank, sometimes I don't--I find the FAA's process to 
be a little bit confusing and I agree certainly with the need 
for public safety, that should always be our top goal, but 
right now my fear is--in the name of safety I am afraid we are 
stifling innovation and research opportunities by keeping 
pretty harmless UASs out of the sky. At the same time, on an 
unrelated topic but one that is important to me, I have been 
trying to get answers from the FAA about their air traffic 
controller hiring practices, which were recently changed, and I 
believe could jeopardize the safety of airline passengers 
across the country. And we are going to continue to try and get 
answers there from the FAA.
    But getting to questions, Mr. Williams, in early December 
2014 the Association of American Universities and Association 
of Public Land Grant Universities wrote a letter to FAA 
stating, ``there is no timely workable mechanism for both 
public and private universities to secure FAA approval to 
conduct important research utilizing small unmanned aerial 
systems, or sUAS, technology.'' I wondered, has FAA considered 
issuing a rule to make it easier for universities to research 
sUASs such as allowing universities to research sUASs on their 
own property below 400 feet?
    Mr. Williams. Well, we believe that our small rule will 
address the needs of the universities. We also believe that--
and I have had discussions with several universities about 
this, that they can move forward using our Section 333 process 
to conduct their training, research, et cetera. And I have had 
discussions with several universities about the possibility of 
doing that and I think they are interested.
    Mr. Hultgren. Okay. So in the meantime there is some 
opportunities there but also you expect that the rule would 
give them this ability to do some of the research that they are 
looking to do?
    Mr. Williams. Um-hum.
    Mr. Hultgren. Mr. Williams, roughly how much interest is 
there in the FAA test sites in terms of calls, meetings, and 
website visits? How many organizations have actually used the 
test sites?
    Mr. Williams. I don't have the data with me, sir. We can 
certainly get back to you----
    Mr. Hultgren. Could you? That would be great. If you can 
maybe get that back to us or to the Committee, that would be 
terrific.
    Mr. Wynne and Mr. Guinn, how would you organize the FAA UAS 
test sites to best accommodate industry's R&D needs?
    Mr. Wynne. Sir, we are--we want to get this word out. I 
think the--you know, it is early days for the test sites so we 
have got to make the--I think them more accessible. We have 
discussed earlier the need for greater transparency, getting 
the costs down, et cetera. I think there is also a need to 
focus the research on the specific areas that we have been all 
agreeing needs to be advanced, so I think those are the primary 
elements that we have been looking at.
    Mr. Hultgren. Do you have anything to add?
    Mr. Guinn. I would take the six FAA test sites that exist 
in remote locations and expand that to test sites that might be 
on your company's private property that have, you know, strict 
regulations around what you are allowed to do, geo-fenced. You 
know, the drones with a geo-fence will not cross that barrier. 
They have that level of intelligence today. So sub 400 feet, 
you know, don't cross the geo-fence, remain line of sight, and 
now that test site can be on your own company's property.
    Mr. Hultgren. Are they--have you heard if they are open to 
that, looking into that?
    Mr. Guinn. Are you guys open to that?
    Mr. Hultgren. Mr. Williams?
    Mr. Williams. I believe that we have the experimental 
process that could accommodate that type of operation. We have 
experimental airworthiness certificates that we issue for 
development, research, et cetera, that have been taken 
advantage of by other companies to do exactly that. So that 
process does remain available to anyone who chooses to use it.
    Mr. Guinn. And I hear that a lot and that is the same--is 
that the same airworthiness certificate that there has been 14 
total granted so far in the country of all the people that want 
to fly drones?
    Mr. Williams. No, we have issued quite a few more 
experimental certificates.
    Mr. Guinn. So the Section 333, is that--that is what is 
required for a private drone operator to be able to operate and 
do test flights?
    Mr. Williams. That is for commercial use. I mean the 
experimental process is for the developmental use.
    Mr. Guinn. Okay. So I guess I am talking about more for 
private sector versus government. Is that----
    Mr. Hultgren. Let me ask you this real quick because I am 
running out of time, but on that, how do you see other 
countries openness to doing this versus the United States, your 
members? Have you seen similar openness here as in other 
countries or do you see greater challenge? And I am out of 
time.
    Mr. Guinn. Well, there is a huge disparity, and I think in 
other countries they just use a simple, you know, proportional 
risk-based system to say if the drone is very lightweight and 
being flown low altitude, line of sight, there is a lot less 
regulation than a heavy drone being flown out of line of sight 
at higher altitudes. So it is pretty logical.
    Mr. Hultgren. It makes common sense. Yeah.
    Mr. Guinn. Pretty logical.
    Mr. Hultgren. Hopefully we can see what other countries 
have been doing, doing safely, and we can do the same thing 
here.
    Thank you, Chairman, for your indulgence. I yield back.
    Chairman Smith. Thank you, Mr. Hultgren.
    And the gentleman from Alabama, Mr. Palmer, is recognized 
for questions.
    Mr. Palmer. Thank you, Mr. Chairman.
    I was called away to another meeting so I missed a lot of 
this. And thank you for the demonstration. I might ask for one 
of those for Christmas myself.
    A couple of things, I don't know if this has been asked, 
but has anyone done an estimate of economic impact in the 
context of what it would be worth to the U.S. economy for--if 
we had the design and engineering done here in the United 
States, if we do the construction here--manufacture, I should 
say the manufacture of the--well, if you are doing UAS as--did 
you say as large as a 727? Is that what you said?
    Mr. Williams. [Nonverbal response.]
    Mr. Palmer. So you would be doing design engineering and 
construction. Has anyone looked at what the economic impact of 
that might be?
    Mr. Wynne. Yes, sir. The numbers that my organization have 
put together in 2013 suggest that after we have access to the 
national airspace the economic impact amounts to about $82 
billion and 100,000 jobs, 100,000 plus jobs. Those numbers were 
put together in 2013. We think they probably--we are going to 
update those numbers. They probably understate the opportunity.
    Mr. Palmer. Now, that is just the design, engineering, 
construction? That is my question.
    Mr. Wynne. And ancillary.
    Mr. Palmer. So that would be the commercial use?
    Mr. Wynne. No, that does not include commercial use.
    Mr. Palmer. Okay.
    Mr. Wynne. Profitability for other business----
    Mr. Palmer. All right. All right. Are we losing any 
technological advantage by the delays in approval for testing, 
in other words, if this is--if this goes offshore?
    Mr. Wynne. For the design and test, and those numbers I 
think, yes, sir. I think that is an important distinction. The 
markets that we--the end user community such as the insurance 
industry, the agriculture community, et cetera, they will still 
want to utilize the technology. The question is whether or not 
they will be using American-built technology.
    Dr. Lauber. And if I may add to that, during the course of 
our study, we heard presentations from many in the industry. 
Many of them told us that they could not conduct the kind of 
research and development that they needed to do in the United 
States and that they were taking their operations offshore.
    And if I may briefly add in November I participated in a 
meeting sponsored by the National Air and Space Academy in 
France and one of the key things that came out of that 
conference was the fact that the DGAC, the French FAA, in 2012 
issued a risk-based set of regulations covering the very small 
UASs, I think 2-1/2 kilos. They put those in place. As of the 
time of the conference, which was in November, there were over 
1,000 certified operators, more than 1,600 vehicles in French 
airspace alone, and there were multiple manufacturers and 
others participating in this. It was really quite interesting 
to see this industry taking off there.
    Mr. Guinn. And those numbers for France, that--France has 
approximately 90 percent the populous of Texas, is that right? 
So, yeah, we could probably get some pretty amazing economic 
benefit for the whole country.
    Mr. Palmer. Going back to the size of these things is, you 
said a 727. Do you foresee a company like Federal Express or 
one of the big commercial carriers utilizing these for high-
capacity transports?
    Dr. Hansman. There is interest on the part of Federal 
Express explicitly and several other particularly cargo 
operators. It--this is going to be a long time in the future. 
These capabilities will first come through in the military, 
demonstrated, and the risk issues will be demonstrated. But 50 
years from now, 60 years from now there will be UAVs. We can do 
it technically today. The issue is to work out all the 
operational details.
    Mr. Palmer. And one of those operational details, I would 
assume, would be ensuring that the guidance systems cannot be 
hacked?
    Dr. Hansman. Exactly. That is the comment that Dr. Lauber 
talked about. One of the key research areas are the 
cybersecurity issues particularly associated with the uplink--
command uplink.
    Mr. Palmer. My last question has to do with utilizing these 
for high altitude subspace, maybe even, you know, launch and 
return capabilities, high altitude subspace for, say, weather 
evaluations, things like that. Do you--is that something that 
is on the drawing board?
    Dr. Hansman. One of the biggest potential markets is 
actually the use of these vehicles for high altitude relay for 
basically internet on the surface. So you can have long 
persistence vehicles at high altitude that can now act 
effectively as satellites and be doing broadband distribution 
to the ground.
    Mr. Palmer. And I guess my B part of the last question 
would be, for instance, an unmanned flight to the International 
Space Station, would you--do you foresee having the capability 
for launch and return for a mission like that?
    Dr. Hansman. Well, we do today. That is--we have unmanned 
vehicles that are flying cargo missions to the Space Station 
today.
    Mr. Palmer. All right. Thank you, Mr. Chairman.
    Chairman Smith. And thank you, Mr. Palmer.
    And let me thank all of our witnesses today. This has been 
a particularly interesting and informative panel. We wish Mr. 
Williams, however, the FAA had told us when they might have the 
rule ready, but with that possible exception, I appreciate all 
your contributions.
    And this has really been helpful, I think, to members of 
the Science Committee and we look forward to hearing from you 
all in the future and to waiting and watching to see how the 
development goes with the integration and with the use of 
drones both in the private sector and in the commercial sector 
as well.
    So thank you all again for being here.
    [Whereupon, at 4:58 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Ed Waggoner



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. James Williams


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Responses by Dr. John Lauber

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Brian Wynne

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Colin Guinn


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. John Hansman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




      Statement submitted by Ranking Member Eddie Bernice Johnson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Statement submitted by Represenative Donna R. Edwards

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Letters submitted by Chairman Lamar S. Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Letter submitted by Ranking Member Eddie Bernice Johnson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
